OFFICE OF THE ARIZONA ATTORNEY GENERAL
SOLICITOR GENERAL’S OFFICE
M ARK BRNOVICH
ATTORNEY GENERAL

CAPITAL LITIGATION
SECTION

Tucson Office
(520) 628–6520
Fax-(520) 628-6878

May 25, 2021
Via Electronic Filing and Federal Express
Honorable Scott S. Harris
Clerk of Court
Supreme Court of the United States
One First Street, NE
Washington, DC 20543
Re: David Shinn, et al. v. Ramirez and Jones, No. 20-1009
Dear Mr. Harris:
I am counsel of record for the Petitioners in this case. Petitioners respectfully request
a 30-day extension of time, to and including August 2, 2021, to file their opening brief and
joint appendix. Counsel for Respondents consents to this extension.
In addition, Petitioners consent to a 30-day extension of time for Respondents’ brief, to
and including October 1, 2021. Petitioners’ reply brief would be due 30 days later (or within
the time specified in Rule 25.3).
Thank you for your consideration.
Sincerely,

s/Lacey Stover Gard
Deputy Solicitor General/
Chief of Capital Litigation
Lacey.Gard@azag.gov

Cc: Robert M. Loeb, Orrick, Herrington & Sutcliffe LLP (Counsel of Record for
Respondents)
Cary Sandman, Federal Public Defender’s Office
Tim Gabrielsen, Federal Public Defender’s Office

400 W. CONGRESS, SUITE.-215, TUCSON, ARIZONA 85701-1367 • PHONE (520) 628-6520 • FAX (520) 628-6878

